                              Office of the Inspector General

September 28, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Performance Measure Review: Reliability of the Data Used to Measure Social Security
Administration Employee Satisfaction with the Level of Security at Their Facility
(A-13-00-10025)

Attached is a copy of our final report. Our objective was to determine the reliability of
the data reported in the Fiscal Year 2000 Performance Plan by the Social Security
Administration to measure employee satisfaction with security at their work facility.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                              James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



   PERFORMANCE MEASURE REVIEW:
    RELIABILITY OF THE DATA USED
     TO MEASURE SOCIAL SECURITY
      ADMINISTRATION EMPLOYEE
    SATISFACTION WITH THE LEVEL
    OF SECURITY AT THEIR FACILITY

  September 2000      A-13-00-10025




 AUDIT REPORT

                                   Office of the Inspector General
September 28, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General

Performance Measure Review: Reliability of the Data Used to Measure Social Security
Administration Employee Satisfaction with the Level of Security at Their Facility
(A-13-00-10025)


The Government Performance and Results Act of 1993 (GPRA), Public Law 103-62,
requires Federal agencies to develop and institutionalize processes to plan for and
measure mission performance. Each agency must develop goals and objectives as well
as specific performance indicators to measure the relevant outputs, service levels, and
outcomes of each program activity. GPRA also requires each agency to describe how it
will verify the data used to report on program performance. For the Social Security
Administration (SSA), the Office of the Inspector General will conduct reviews to
determine the reliability of SSA’s reported performance data.

The objective of this audit was to determine the reliability of the data SSA reported for
the following GPRA performance indicator:

Percent of Employees Reporting They Are Satisfied with the Level of Security at
Their Facility

RESULTS OF REVIEW
The data SSA used to report on the percent of employees reporting they were satisfied
with the level of security in their work facility were reliable. In determining this, we relied
on General Accounting Office (GAO) guidance in defining “data reliability” as well as
providing a framework for assessing the reliability of computer processed data.1 We
found the data were sufficiently complete and error free to be convincing for their
purpose and context.

However, SSA’s presentation of the data would be more informative if SSA disclosed
the survey response rate. Also, SSA could derive additional benefit from the data with
expanded analysis for management information purposes. In addition, SSA’s reporting
of the data needs clarification. The number of surveys completed was not presented



1
    GAO, Assessing The Reliability of Computer-Processed Data, April 1991.
                                                    2
accurately.2 The reporting also did not reveal the original survey was used to produce
baseline data and did not have a performance goal.

DATA WERE RELIABLE

The data reported for this performance indicator, which measured the percentage of
employees reporting they were satisfied with security in their work facility, were reliable.
The data were sufficiently complete and accurate for their purpose.

SSA’s Fiscal Year (FY) 1999 goal was to have a 70-percent rate of employee
satisfaction with security at their facility. Management decided it was an appropriate
goal since the initial survey in 1996 measured the satisfaction rate at 64 percent.
Performance data reported in FY 1999 showed 74 percent of employees were satisfied
with workplace security. Hence, SSA reported meeting its performance goal.

To obtain its data, in July 1998, SSA sent a survey via postal service and inter-office
mail to 6,511 of its 651,000 full-time, permanent employees. SSA received
3,621 responses, of which 2,680 (74 percent) indicated satisfaction with workplace
security. To obtain its data, SSA scanned the response sheets and processed the
information by computer. Data for the performance measure were predicated on the
answer to a single question (out of 26) on the survey that asked about an overall
perception of safety/security in the work environment.

We were able to replicate SSA’s results by testing the data. We manually reviewed all
the survey answer sheets and found that 74 percent of the survey respondents
answered they were satisfied with the security in their work facility.3

DATA PRESENTATION AND USE COULD BE IMPROVED

The data could have been presented in a more informative context by disclosing the
response rate. Also, the data already gathered could be further analyzed and used for
management information and planning.

SSA reported it received 3,621 responses before the cut-off date. This represents a
56-percent response rate.4 GAO guidance indicates it can be a serious mistake to
assume non-responders would provide similar answers as responders.5 To overcome
the effects of non-responses, GAO recommends follow up. SSA management advised
us some efforts were made to improve the response rate. The non-response data were
not presented along with the performance data to let the reader judge its impact.
Although 74 percent of the respondents were satisfied with workplace security, this
conclusion was based on a 56-percent response rate. Of the population surveyed,
41 percent (74 percent of 56 percent) of employees was known to be satisfied with
workplace security. Alternatively expressed, 59 percent of employees surveyed was
either not satisfied with security or failed to respond to the survey.
2
  Social Security Administration Accountability Report for Fiscal Year 1999 and Performance Plan for

Fiscal Year 2000.

3
  We found 24 fewer answer sheets than recorded in SSA’s computer-processed data. The discrepancy

in the total number of responses is not material.

4
  SSA reported it obtained a 63-percent response rate for the initial baseline survey done in 1996.

5
  GAO, Using Statistical Sampling, p.112, May 1992.

                                                     3
Although the performance indicator and goal only called for expressing an overall rate,
the survey did capture additional information that could be useful for management. For
example, the responses could be analyzed by type of work facility. For facility types
with employees reporting a satisfaction rate below the stated goal, analysis could
indicate the need for improved security measures or the need to make employees more
aware of security measures already in place.

DATA PRESENTATION LACKED CLARITY

SSA’s reporting of the data needs clarification. The number of surveys already
conducted was not presented accurately. SSA presented actual results for
three surveys, when only two were done. Results from the initial 1996 survey were
reported in SSA’s Accountability Report for Fiscal Year 1999 as actual results for
FYs 1997 and 1998. Results from the 1998 survey were reported as actual results in
FY 1999. The data presentation also fails to explain that a performance goal was not
provided in the initial survey because that survey was used only to provide baseline
data. The data were presented similarly in SSA’s Performance Plan for
Fiscal Year 2000.

CONCLUSIONS AND RECOMMENDATIONS
Our testing of the data led us to conclude they were reliable. However, the reporting of
that data could be more informative, its use improved with further analysis, and its
presentation clarified. We recommend that SSA take the following actions:

1. For future surveys, if the response rate falls below the current level, perform a non-
   responder analysis.

2. 	 Supplement the way the performance data are reported by informing the reader of
     the overall response rate. Also, use the data for expanded management
     information, such as analyzing the causes of variations in satisfaction levels by type
     of facility.

3. 	 Clarify the data presentation in future Accountability Reports and Annual
     Performance Plans regarding the number of surveys completed and the
     performance goals and actual results of each.

AGENCY COMMENTS

In response to our draft report, SSA stated Recommendation 1 is moot because SSA
plans to discontinue conducting a discrete physical security survey. In the future, SSA
will monitor employee satisfaction with security through the Agency’s Market
Measurement Program.

SSA generally agreed with Recommendations 2 and 3 to report response rates along
with performance data and clarify the data presentation in future Accountability Reports
and Annual Performance Plans.


                                             4
SSA also stated it will consider our recommendation to use the data collected for this
performance measure for expanded management information.

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We support SSA’s concurrence to report response rates along with performance data
and clarify its data presentation in relevant reports. We continue to encourage SSA to
use the data already collected for expanded management information.




                                                   James G. Huse, Jr.




                                            5
                           APPENDICES



APPENDIX A - Background

APPENDIX B - Scope and Methodology

APPENDIX C - Agency Comments

APPENDIX D - OIG Contacts and Staff Acknowledgements

APPENDIX E - SSA Organization Chart

                                                                         APPENDIX A


                             BACKGROUND


The Government Performance Results Act requires all Federal agencies to conform to
concepts of strategic management. Accordingly, the Social Security Administration
(SSA) has issued a strategic plan (Strategic Plan 1997-2002) that sets forth SSA’s
mission, values, strategic goals and objectives, and target levels of performance. SSA
has also issued an annual performance plan to serve as a link between its long-range
strategic plan and the annual budget request for the Agency. The annual plan
describes levels of performance the Agency is committed to achieve as well as the
means and strategies to achieve them.

In its strategic plan, SSA set forth five general goals that encompass all of its program
activities. Recognizing its mission and program goals depend on the attitudes and skills
of its employees, SSA articulated a distinct strategic goal “…to be an employer that
values and invests in each employee.” To realize that goal, SSA indicated it will pursue
several objectives, one of which is “…to provide a physical environment that promotes
the health and well-being of employees.” One measure for that objective was to assess
employees’ satisfaction with the level of security at their facility.

SSA decided to conduct a survey of employee satisfaction in 1996, using a
questionnaire directed to a sample of the entire full-time employee population. SSA
reported that 64 percent of the respondents was satisfied with the level of security at
their work facility. Using this information as baseline data, SSA determined it would
strive for a 70-percent rate on its next survey. SSA conducted that survey in 1998 and
reported that 74 percent of the respondents answered they were satisfied with
workplace security. From these data, SSA concluded it met the performance goal set
forth in its annual performance plan.
                                                                            APPENDIX B


               SCOPE AND METHODOLOGY


The objective of this review was to assess the reliability of the Social Security
Administration's (SSA) performance data used to measure SSA employee satisfaction
with the level of security at their facility. SSA has indicated the Office of the Inspector
General will conduct reviews to determine the reliability of reported performance data.

To meet our objective, we interviewed SSA personnel involved in the formation of the
performance indicator as well as those involved in collecting, recording, and analyzing
the data. We tested the reported data by obtaining the paper survey response sheets
and manually comparing the relevant data to SSA’s computer processed data.

Our work was conducted at SSA Headquarters in Woodlawn, Maryland. The field work
was done from December 1999 to April 2000. Our review was conducted in accordance
with generally accepted government auditing standards.
                   APPENDIX C


AGENCY COMMENTS

COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,

"PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE DATA USED TO

MEASURE SOCIAL SECURITY ADMINISTRATION EMPLOYEE SATISFACTION

WITH THE LEVEL OF SECURITY AT THEIR FACILITY" (A-13-00-10025)



Recommendation 1


For future surveys, if the response rate falls below the current

level, perform a non-responder analysis.


Comment


This issue is moot because the last discrete physical security

survey has already been initiated and the methodology cannot now

be changed in order to perform such an analysis. In the future,

employee satisfaction in this area will be monitored through the

Agency's Market Measurement Program.


Recommendation 2


Supplement the way the performance data are reported by

informing the reader of the overall response rate. Also, use

the data for expanded management information, such as analyzing

the causes of variations in satisfaction levels by type of

facility.


Comment


We agree that there is merit to providing response rates to

readers and the response rate continues to be openly reported.

However, we believe it is misleading to mix non-responders data

with data of those who were dissatisfied with the security of

the workplace in an overall response rate as recommended. For

example, we believe it is much more accurate to report that 15

percent of the population surveyed (26 percent of respondents)

were known to be dissatisfied with security and 44 percent of

the population surveyed failed to respond; rather than 59

percent of the population surveyed were either dissatisfied with

security or failed to respond. We will consider the use of

additional survey data to provide expanded management

information.


Recommendation 3


Clarify the data presentation in future Accountability Reports

and Annual Performance Plans regarding the number of surveys

completed, and the performance goals and actual results of each.


                               C-2

Comment


We agree that every effort must be made to avoid errors in data

presentation in these reports. As explained to the audit team

during the review, repeating the results from the 1996 survey as

an actual number for both 1997 and 1998 in portions of the

Accountability Report for FY 1999 and the Social Security

Administration's (SSA) Performance Plan for FY 2000 was simply

an error. The 1998 figure should have been the target number

for the 1998 survey. We will make every effort to ensure that

such errors are not repeated in the future.





                               C-3

                                                                          APPENDIX D


                OIG CONTACTS AND STAFF

                  ACKNOWLEDGEMENTS


OIG contacts

   Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365

   Carolyn R. Neuwirth, Deputy Director, (410) 966-1404

Acknowledgements

In addition to those named above:

   Steve Weal, Senior Auditor

   Gerald Hockstein, Program Analyst

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-13-00-10025.
                      APPENDIX E


SSA ORGANIZATIONAL CHART

